CERTIFICATE OF SERVICE
I, William M. Jay, a member of the Bar of this Court, hereby certify on this
26th day of April, 2019, that a copy of this Application for Extension of Time to
Petition for Writ of Certiorari in the above-entitled case was mailed, first class
postage prepaid, to counsel for respondent at the following address:
Neal Kumar Katyal
Colleen E. Roh Sinzdak
Hogan Lovells
Columbia Square
555 13th Street, N.W.
Washington, DC 20004-0000
neal.katyal@hoganlovells.com
colleen.sinzdak@hoganlovells.com
Alexandra H. Bistline
Pirkey Barber PLLC
600 Congress Avenue, Suite 2120
Austin, TX 78701
abistline@pirkeybarber.com
Trey Yarbrough
Yarbrough Wilcox PLLC
100 E. Ferguson St., Suite 1015
Tyler, TX 75702
trey@yw-lawfirm.com

Counsel for Respondent
As required by Rule 29.3, an electronic version is being transmitted to the
email addresses listed above.
I further certify that all parties required to be served have been served.

William M. Jay

